CERTIFICATE OF SERVICE
NO. TBD
Emmanuel Edokobi
Petitioner,
v.
Judge Paul W. Grimm
Respondent.
STATE OF MASSACHUSETTS ) .
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Emmanuel Edokobi Petition for Writ of Certiorari, by mailing three (3) true and correct copies
of the same by Fedex 2-Day, prepaid for delivery to the following address.
Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave, NW., Suite 5614
Washington, DC 20530-0001
(202)514-2217
supremectbriefs@usdoj .gov
Counselfor United States of America

Lucas DeDeus

May 21, 2021
SCP Tracking: Edokobi-2005 Stratton Drive-Cover White

